Final Memorandum, “NASA’s Implementation of Patch Management Software Is
Incomplete” (IG-06-007, March 17, 2006)

The NASA Office of Inspector General (OIG) conducted an audit to determine whether
NASA had established formal requirements, guidance, and milestones for
implementation of patch management software and whether NASA had fully
implemented an effective patch management process and capability. We found that
while NASA had established formal requirements, guidance, and milestones, two NASA
contractors had not fully implemented the patch management software as required by the
NASA Chief Information Officer (CIO). We recommended that the NASA CIO, in
coordination with the relevant contracting officers, take appropriate action to ensure that
contractors are complying with NASA requirements to implement an effective patch
management program, including the implementation of specific software for patch status
reporting. We also recommended that the NASA CIO require the Centers to maintain
inventories and use those inventories to ensure up-to-date installation of patch
management tools on all applicable computers. NASA management concurred with both
recommendations, stating that patch management language will be fully incorporated into
relevant contracts and that the NASA CIO will mandate that all Centers develop
inventories and identify which computers have and or need installation of patch
management tools.

The memorandum contains NASA Information Technology/Internal Systems Data that is
not routinely released under the Freedom of Information Act (FOIA). To submit a FOIA
request, see the online guide.
